DAVIS & HAMRICK, L.L.P.
Attorneys and Counselors at Law
Post Office Drawer 20039
Winston-Salem, NC 27120-0039

H. Lee Davis, Jr.*
Kent L. Hamrick
James G. Welsh, Jr.*
Ann C. Rowe
Jason L. Walters
Jilliann L. Tate

*Certified Superior Court Mediator

OLD WINSTON THEATER BUILDING
635 WEST FOURTH STREET
WINSTON-SALEM, NC 27101

TELEPHONE
336-725-8385
Ext. 116
DIRECT DIAL
336-464-9785
FAX
336-723-8838
aroweAdavisandharniiek.com

November 13, 2020

VIA FEDERAL EXPRESS
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Barry Damon Mallatere v. Town of Boone,
a North Carolina Municipal Corporation
Lower Court: United States Court of Appeals for the Fourth Circuit; 19-1698
No. 20-580

Dear Sir/Madam:
I represent the Respondent, Town of Boone, in the above-referenced matter. Petitioner,
through counsel, filed his Petition for a Writ of Certiorari on October 28, 2020, and it was placed
on the docket on November 2, 2020. Respondent's brief in opposition to the Petition for a Writ
of Certiorari is presently due on or before December 2, 2020. Pursuant to Rule 30.4 of the
United States Supreme Court, we hereby respectfully request a thirty (30) day extension of time
within which to file a brief in opposition to the Petition for a Writ of Certiorari:
I am not presently a member of the United States Supreme Court Bar; however, I
understand and acknowledge that the brief in opposition to the Petition must be filed by a Bar
member. The extension will allow me an opportunity to complete and submit my application for
admission. In addition to this personal matter, an extension of time is requested in order to
thoroughly review the Petition, prepare a response, confer and coordinate with my client, and
consult with practitioners of the United States Supreme Court in preparing Respondent's
submission to the Court.
Accordingly, we respectfully request a thirty (30) day extension of time within which t
file a Brief in Opposition to the Petition for a Writ of Certiorari. Since th
EC BMW
fall on Friday, January 1, 2021 (a federal legal holiday listed in 5 U. .C. ยง6103) and the
following two days are Saturday and Sunday, we would request that the du datV tlicaB2 in
Tel,: . sLERK
OFFICE OFCOURT,
U.S.
SUPREME

Opposition to the Petition for a Writ of Certiorari be January 4, 2021. We thank you in advance
for your time and attention to the foregoing.
With best regards, I am
Sincerely yours,
DAVIS & HAMRICK, L.L.P.
aAAAA C MU-C.)
Ann C. Rowe

ACR:jlt
Nathan A. Miller (Attorney for Petitioner)
cc:
(via Federal Express)

